                                                    National Railroad Passenger Corporation
                                                    Office of Inspector General
                                                    10 G Street N.E.
	                                                  Washington, DC 20002




                EMPLOYEES STEAL MATERIALS FROM AMTRAK YARDS
                              OCTOBER 29, 2013
                              CASE # PA-12-0314

OIG conducted a joint investigation with the Amtrak Police Department regarding five
Amtrak employees who stole communications copper wire from several locations in
Pennsylvania and Delaware. They later resold the stolen copper wire that was valued
at over $100,000 to recycling companies. All five individuals pled guilty in federal court
and either left Amtrak or were terminated. Two individuals were sentenced to 12
months probation, and two individuals were sentenced to 36 months probation. One
defendant was sentenced to pre-trial diversion and was ordered to pay $10,000 in
restitution. That defendant’s criminal record will be cleared after one year if he follows
the pre-trial diversion plan. The remaining four defendants were ordered to make
restitution to Amtrak jointly and severally of $99,249.
